   Management Letter
  for the FY 2005 DHS
Financial Statement Audit
                                                                         Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528


                                                                        Homeland
                                                                        Security
                                              July 24,2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our oversight responsibility to promote economy, efficiency, and effectiveness within the
department.

This report presents the management letter for DHS' FY 2005 financial statement audit. It contains
observations and recommendations related to internal control that were not required to be reported in
the financial statement audit report. The independent public accounting firm KPMG LLP (KPMG)
performed the audit of DHS' FY 2005 financial statements and prepared this management letter.
Material weaknesses and other reportable conditions were reported, as required, in KPMG's
Independent Auditor's Report, dated November 14,2005, that was included in the FY 2005 DHS
Performance and Accountability Report. KPMG is responsible for the attached management letter
dated December 15,2005, and the conclusions expressed in it. We do not express opinions on DHS'
financial statements or internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.



                                              Richard L. Skinner
                                              Inspector General
                               KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036

December 15,2005

Office of Inspector General and Chief Financial Officer,
U.S. Department of Homeland Security,
Washington, DC

Ladies and Gentlemen:

We were engaged to audit the consolidated balance sheet of the U.S. Department of Homeland
Security (DHS) as of September 30,2005. We were not engaged to audit the consolidated statements
of net cost, changes in net position, and financing, combined statement of budgetary resources, and
statement of custodial activity for the year ended September 30,2005. Because of matters discussed in
our Independent Auditors ' Report, dated November 14,2005, the scope of our work was not sufficient
to enable us to express, and we did not express, an opinion on the consolidated balance sheet for the
year ended September 30,2005.

In connection with our fiscal year 2005 engagement, we were also engaged to consider DHS' internal
control over financial reporting and to test DHS' compliance with certain provisions of applicable
laws, regulations, contracts, and grant agreements that could have a direct and material effect on the
consolidated balance sheet. Our procedures may not include examining the effectiveness of internal
control and do not provide assurance on internal control. We have not considered internal control since
the date of our report.

We noted certain matters involving internal control and other operational matters that are summarized
in the Table of Financial Management Comments on the next page, and presented for your
consideration in Sections I - IX of this letter. These comments and recommendations, all of which
have been discussed with the appropriate members of management, are intended to improve internal
control or result in other operating efficiencies. These comments are in addition to the reportable
conditions presented in our Independent Atrditors' Report, dated November 14,2005, included in the
FY 2005 DHS Performance and Accountability Report. A description of each internal control finding,
and its disposition, as either a reportable condition or a financial management comment is provided in
Appendix A. Our findings related to information technology systems security have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Information Officer dated
December 15,2005.

As described above, the scope of our work was not sufficient to express an opinion on the consolidated
balance sheet of DHS as of September 30, 2005, and we were not engaged to audit the consolidated
statements of net cost, changes in net position, and financing, combined statement of budgetary
resources, and statement of custodial activity for the year ended September 30,2005. Accordingly,
other internal control matters and other instances of non-compliance may have been identified and
reported had we been able to perform all procedures necessary to express an opinion on the September
30,2005 consolidated balance sheet, and had we been engaged to audit the other fiscal year 2005
consolidated financial statements. We aim, however, to use our knowledge of DHS' organization
gained during our work to make comments and suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS' management, the Office of Inspector
General, the U.S. Office of Management and Budget, the U.S. Congress, and the Government
Accountability Office, and is not intended to be and should not be used by anyone other than these
specified parties.

Very truly yours,
                                  Department of Homeland Security
                              Table of Financial Management Comments
                                         September 30,2005


             TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

SectionIBureau
           Comment
           Reference    Subject                                                                   Page

 I     Consolidated (CONS)
          FMC 05-01     Monitoring of laws and regulations
          FMC 05-02     Debt Collection Improvement Act
          FMC 05-03     Federal Law Enforcement Training Center leases

 I1    Customs and Border Protection (CBP)                                                        5-8
          FMC 05-01     Automated Commercial System (ACS) deficiencies over account
                        receivables and CBP's ability to effectively monitor collection actions
          FMS 05-02     Verification of CPL and certification payments
          FMC 05-03     ACS deficiency over the accumulation of claims against a drawback
                        bond
          FMC 05-04     Various drawback findings
          FMC 05-05     Drawback record keeping deficiency
          FMC 05-06     Unable to obtain UCE's for drawback
          FMC 05-07     In-bond process deficiencies
          FMC 05-08     Insufficient evaluation criteria for Account Managers
          FMC 05-09     Various entry findings
          FMC 05-10     Entry bond sufficiency

 I11   Emergency Preparedness and Response (EPR)
           FMC 05-01    Region IX financial management of grants
           FMC 05-02    Region V financial management of grants
           FMC 05-03    Lack of segregation of duties related to preparation and approval of
                        journal vouchers
           FMC 05-04    Delay in clearing items from the suspense account
           FMC 05-05    Capitalization criteria in NEMIS was not updated
           FMC 05-06    Timeliness in reconciling FMS 6653 differences
           FMC 05-07    Temporary adjustments of fund balance with Treasury reconciliation
                        differences
           FMC 05-08    Improvements needed in the TIER validation process
           FMC 05-09    Recording of accruals related to fire grants
           FMC 05-10    Recording of costs for software in development
           FMC 05-1 1   Recognition of National Flood Insurance Program (NFIP) flood claim
                        obligations
           FMC 05-12    Personal property acquired under mission assignments
           FMC 05-13    Review for property, plant, and equipment (PP&E) acquired at fiscal
                        year-end
           FMC 05-14    Availability of supporting documentation for financial transactions
           FMC 05-15    Timely recording of manufactured housing property in LIMS

 IV    United States Citizenship and Immigration Services (USCIS)                                 15-17
           FMC 05-01    CLAIMS 3 and 4 are not being updated in a timely manner upon
                        adjudication
           FMC 05-02    Insufficient QA procedures related to search for missing files
           FMC 05-03    Incorrect fee amounts used in RNACS queries.
           FMC 05-04    Applications not subject to quality assurance procedures
                                    Department of Homeland Security
                                Table of Financial Management Comments
                                           September 30,2005



             FMC 05-05    Fee receipts are not being deposited in a timely manner per Treasury
                          guidance
             FMC 05-06    Accumulated leave balances reported by the NFC do not agree with the
                          leave balances in STAR
             FMC 05-07    Actuarial FECA liability for USCIS appears to be misstated

 V        Immigration and Customs Enforcement (ICE)                                                  18-20
             FMC 05-01    Documentation to support T&A and leave data was not provided
             FMC 05-02    Payroll interface errors and reclassifications for ICE, USCIS, and the
                          component units
              FMC 05-03   Insufficient supporting documentation to determine whether annual
                          training was provided to all Senior Executive Service (SES) employees
              FMC 05-04   Accumulated leave balances reported by NFC do not agree with the
                          leave balances recorded in STAR
              FMC 05-05   Actuarial FECA liability for ICE appears to be misstated
              FMC 05-06   inability to complete audit procedures related to Thrift Savings Plan
                          (TSP) compliance due to lack of supporting documentation
              FMC 05-07   FFMS does not adequately support certain obligation information

VI        Office of State and Local Government Coordination and Preparedness                         21-23
          (SLGCP, formerly the Office for Domestic Preparedness)
              FMC 05-01   Lack of an executed reimbursable agreement
              FMC 05-02   Financial Monitoring of Grants Awarded by SLGCP
              FMC 05-03   Lack of segregation of duties in the preparation and approval of journal
                          vouchers
              FMC 05-04   Grants Monitoring and File Maintenance
              FMC 05-05   Statement of net cost allocation methodology
              FMC 05-06   Improvements needed in the TIER validation process
              FMC 05-07   Improvement needed over journal voucher review procedures
              FMC 05-08   Timeliness of grant closeouts

VII       Transportation Security Administration (TSA)
              FMC 05-01   Human resources document retention
              FMC 05-02   Revenue and Accounts Receivable
              FMC 05-03   Imputed Financing

VIII United States Coast Guard (USCG)
              FMC 05-01   Confidential financial disclosure reports
              FMC 05-02   Legal liability reporting

IX        United States Secret Service (USSS)
              FMC 05-01   Seized counterfeit currency inventory
              FMC 05-02   Fund balance with Treasury
              FMC 05-03   Seized property process

                                               APPENDIX
Appendix       Subject                                                                               Page

      A        Crosswalk - Financial Management Comments to NFR's
      B        Status of Prior Year NFR's
      C        Management Response to the Draft Management Letter
                                                                                                Section I
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


I.    CONSOLIDATED (CONS)

CONS - FMC 05-01 - Monitoring of laws and regulations (NFR No. CONS 05-06)

      The DHS Office of Financial Management (OFM) has not implemented a process to ensure that
      instances of noncompliance with laws and regulations at the bureaus, related to financial
      reporting, are promptly reported to it.

      Recommendation:
      We recommend that the DHS OFM develop and implement procedures to ensure instances of
      noncompliance with laws and regulations at the bureaus are promptly reported, and that the DHS
      OFM monitor bureau compliance with applicable laws and regulations considered direct and
      material to the DHS consolidated financial statements.

CONS - FMC 05-02 - Debt Collection Improvement Act (DCIA) (NFR No. CONS 05-15)

      The DHS OFM created the DCIA Report Requirement Template to assist in the compilation of
      DHS' DCIA Annual Report, and to meet new reporting requirements from the Office of
      Management and Budget (OMB). We noted several deficiencies related to the DCIA Reporting
      Requirement Template and DHS' DCIA Annual Report. The DHS OFM did not:
         Sufficiently review the bureau templates and make inquiries to confirm their completeness
         and accuracy. For example, the U.S. Coast Guard erroneously reported a deficiency in its
         template because it did not understand the instructions. This erroneous response was then
         incorporated in DHS' DCIA Annual Report;
         Ensure that bureaus provided adequate descriptions of reported noncompliance;
         Provide supporting documentation for the DCIA Annual Report disclosures related to the
         U.S. Secret Service; and
         Provide support to validate SLGCP's compliance status and no information was disclosed in
         the DCIA Annual Report related to SLGCP.

      Recommendation:
      We recommend that the DHS OFM:
         Establish a formal documented review and approval process over each bureau's template
         submission and the DCIA Annual Report that is submitted to OMB, to ensure accuracy and
         completeness; and
         Provide more detailed instruction and guidance to DHS bureaus on the accurate preparation
         of the DCIA Reporting Requirement Template.

CONS - FMC 05-03 - Federal Law Enforcement Training Center leases (NFR No. CONS 05-17)

      The Federal Law Enforcement Training Center (FLETC) has requested that OMB review three
      20-year non-cancelable leases for dormitory buildings, and assist with the determination of their
      appropriate classification as either operating or capital, and determine if FLETC had the authority
      to enter into these agreements. Until the OMB investigation is complete, FLETC is reporting a
      liability related to these leases in the amount of approximately $54 million as an unfunded
      contingent liability in a multi-year appropriation account, which is in accordance with generally
      accepted accounting principles.
                                                                                          Section I
                            Department of Homeland Security
                            Financial Management Comments
                                  September 30,2005


Recommendation:
We recommend that FLETC, with the assistance of the DHS OFM, work with OMB to resolve
the status of the leases in FY 2006, record the adjusting journal entry if necessary, and document
their conclusion for auditor review and permanent recordation.
                                                                                              Section I1
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


11.    CUSTOMS AND BORDER PROTECTION (CBP)

CBP - FMC 05-01 -Automated Commercial System (ACS) deficiencies over account receivables
and CBP's ability to effectively monitor collection actions (NFR No. CBP 05-01)

       ACS does not generate periodic management information on outstanding receivables, the age of
       receivables or other data necessary for managers to effectively monitor collection actions. CBP
       must also use ad hoc reports and manual procedures to ascertain and adjust certain year-end
       accounts receivable balances because ACS is not currently integrated with CBP's general ledger
       system.

       Recommendation:
       We recommend that CBP management ensure that all new system initiatives include a "customer-
       based" accounts receivable subsidiary ledger that interfaces with the general ledger system. CBP
       should also continue to implement the integration of the Automated Commercial Environment
       (ACE) financial system and the general ledger of the new SAP accounting system.

CBP - FMC 05-02 - Verification of CPL and certification of payments (NFR No. CBP 05-02)

       CBP policy requires a drawback chief to review and certify, with automated signature, the Check
       Proof Listing (CPL) of accelerated drawback payments, to ensure that a technician has reviewed
       the payee and other payment information related to a drawback claim package. In the event that
       the ChiefJSupervisor does not certify a payment, the ACS default setting is activated, which
       indicates that the Port Director certified a given payment even when the payment was not
       certified.

       Recommendation:
       CBP plans to correct the issue by implementing an automated system that ensures all necessary
       verifications are completed prior to issuance of a payment; however, this will not be completed
       until FY 2007. In the meantime, CBP should implement a manual control to ensure verification
       of payments and avoid activation of the ACS default.

CBP - FMC 05-03 - ACS deficiency over the accumulation of claims against a drawback bond
(NFR NO. CBP 05-07)

       The automated control that prevents a drawback claimant from exceeding the bond amount on
       file is not operating effectively. As a result, CBP does not have appropriate surety against a
       drawback claimant who "over" claims. Specifically, we noted a drawback claim in the amount
       of $107,790.55 but the ACS screen print function that displays the estimated accumulated claim
       amounts by bond, showed $60,058.27. The ACS screen should have displayed total claims of
       $223,752.58, a total of the $107,790.55 claim and a previous claim of $115,962.03 against this
       bond.

       Recommendation:
       CBP has stated on previous occasions that improving the design of ACS is not feasible or
       financially viable. However, CBP is taking necessary steps in building the ACE to ensure that the
       drawback module will properly account for bond sufficiency. Therefore, we recommend that
       CBP continue with its design and implementation of ACE.
                                                                                              Section I1
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30,2005



       While ACE is in development, we recommend that CBP management implement a manual check
       by the drawback specialist and technicians to query the bond on file related to the claim and
       verify that there is a sufficient amount on the bond for the claimant to be paid.

CBP - FMC 05-04 - Various drawback findings (NFR No. CBP 05-08)

       We noted the following cases where drawback guidelines were not followed:
         Of the 78 drawback claims tested, four claims that were subject to the full desk review
         process were paid without obtaining the required valid proof of export, and one claim was
         paid even though the claimant filed their drawback after the filing deadline.
         Of the four drawback offices tested, one office did not have supervisory review in place for
         first and statistically sampled claims exceeding $50,000.

       Recommendation:
       CBP should enforce their drawback guidelines more strictly.

CBP - FMC 05-05 - Drawback record keeping deficiency (NFR No. CBP 05-09)

       From a sample of third quarter drawbacks, three of the 26 sample items could not be located. All
       missing sample items were the responsibility of one drawback office.

       Recommendation:
       CBP should maintain its entry documentation in accordance with the Records Control Handbook
       and emphasize accountability for location of claims. This can be achieved through the use of a
       log book to track who is responsible for each claim.

CBP - FMC 05-06 - Unable to obtain underlying consumption entries (UCEs) for drawback (NFR
NO. CBP 05-10)

       From a sample of third quarter drawbacks, we noted one drawback claim had 39 underlying
       consumption entries selected for review. The drawback office only obtained and reviewed one of
       the 39 entries from the entry ports. This claim was then liquidated and paid out to the drawback
       claimant. The Drawback Chief did not follow CBP policy as stated in the Drawback Handbook
       to obtain the remaining 38 consumption entries.

       Recommendation:
       CBP should comply with their own guidelines to enforce a strict internal control environment.

CBP - FMC 05-07 - In-bond process deficiencies (NFR No. CBP 05-11)

       We noted the following conditions related to the In-bond process:
          Inaccurate closing of open in-bonds: Reports for in-bonds that are generated from the
          National In-Bond System, TINMAN, are incomplete or have inaccurate data due to system
          limitations; therefore, CBP cannot rely on the information for review purposes and to
          accurately monitor and close in-bonds. We noted CBP has taken action to correct this
          condition through the electronic posting of in-bond manifests as well as programming
                                                                                                Section I1
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30,2005


           changes that were put into place mid-September of 2005. CBP should be able to evaluate if
           the system changes corrected this condition in FY2006.
           Compilation of data: Reports generated from TINMAN, based on inspections and port
           audits, cannot be compiled into one overall report. This makes it difficult and labor intensive
           to determine whether overall compliance issues exist. As noted above, system changes were
           put into place in mid-September, which will be evaluated in FY 2006.
           Recording of inspection results: Results of TINMAN inspections and port audits cannot be
           entered for "archived" in-bonds. Once an in-bond moves to "archived" status, ACS does not
           allow any comments or changes to be made. In certain cases this leads to an inability to
           document reviews and their results. As of mid-September 2005 the system has been changed
           so that "archived" records can have findings posted to them. In FY 2006 CBP should be able
           to evaluate the effectiveness of the programming change.
           Handbook: The In-Bond Handbook, drafted in 1998 was never finalized and published. The
           1998 handbook and the 2003 Directive 3240-036A provide guidance for in-bond procedures
           and preparation of CBP form 7512, Transportation Entry and Manifest of Goods Subject to
           CBP Inspection and Permit.

       Recommendation:
       We recommend that CBP management improve the in-bond control environment by:
          Evaluating the systems changes that were implemented as of mid-September 2005; and
          Finalizing the In-Bond Handbook.

CBP - FMC 05-08 - Insufficient evaluation criteria for Account Managers (NFR No. CBP 05-14)

       One formal, standard set of measurement criteria does not exist for evaluating the effectiveness of
       the Account Manager Program. Weaknesses exist in the communication of criteria to the Account
       Managers at the various ports of entry. In addition, the Account Management Handbook has not
       been updated since FY 2001.

       Recommendation:
       We recommend that CBP:
          Develop measurement criteria that will accurately track the effectiveness of the Account
          Manager program;
          Establish quantitative measurement criteria by which to assess account compliance; and,
          Update the Account Management Handbook to properly reflect the newly established criteria.
                                                                                             Section I1
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


CBP - FMC 05-09 - Various entry findings (NFR No. CBP 05-15)

       We noted the following weaknesses related to the manual entry review process at various ports of
       entry:
           At the port of Miami, the CBP form CF-7501, Entry Summary, for an entry was filed and
           paid on December 14, 2004, more than ten days after the form CF-3461, Entgmmediate
           Delivery, was filed on September 28,2004. By law, the CF-7501 was due on October 13,
           2004, and CBP should have implemented a liquidated damage case against the importer at
           that time, which it did not.
           At the port of Los Angeles, the CF-7501 for an entry listed the wrong case number for an
           anti-dumping duty. Specifically, the case number cited was pending against manufacturer
           "A", but the correct case number should be for manufacturer "B", the manufacturer listed on
           the CF-7501.
           An anti-dumping case number cited for an entry number referenced an incorrect
           manufacturer.

       Recommendation:
       We recommend that CBP notify the appropriate personnel to reinforce the importance of
       accuracy in the manual entry review process and implement more thorough review procedures at
       the supervisory level in order to ensure compliance.

CBP - FMC 05-10 - Entry bond sufficiency (NFR No. CBP 05-17)

       Based on the information maintained in the CBP's Automated Commercial System (ACS), out of
       a sample of 75 bonds, 21 were below (i.e. did not meet) the required bond limit of liability
       amount as defined by USCS Directive 900 3510-004. The total dollar amount of insufficiency
       for the 21 bonds was estimated at $10.6 million. In addition, a bond was filed at the New York
       port office; however, the port was unable to locate the bond for our review.

       Recommendation:
       We recommend that CBP establish detailed, formal standard operating procedures for performing
       and documenting the annual sufficiency review, and ensuring that deficiencies are corrected.
                                                                                                Section I11
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30,2005


111.   EMERGENCY PREPAREDNESS AND RESPONSE (EPR)

EPR - FMC 05-01 - Region I X financial management of grants (NFR No. EPR 05-01)

       We noted that Region IX could not prepare an accurate cost-share analysis, because one state did
       not report any "Recipient Share of Outlays" on Line lob of the Financial Status Report (FSR) for
       both of the active disaster grants tested (Disasters 1267 and 1046).

       Recommendation:
       We recommend that EP&R Headquarters and the region ensure that grant recipients are properly
       trained on the completion of Financial Status Reports. In addition, grants management specialists
       should contact grant recipients in a timely manner if the Financial Status Reports show financial
       information that does not appear complete.

EPR - FMC 05-02 - Region V financial management of grants (NFR No. EPR 05-02)

       We noted the following during the site visit to Region V related to disaster grants:
          One state submitted its second quarter hazard mitigation progress reports late, and its first
          quarter reports were considered incomplete by regional and KPMG personnel;
          One state's quarterly hazard mitigation progress reports were submitted late and its first
          quarter progress reports were not submitted;
          Regional personnel did not maintain a log tracking receipt of quarterly hazard mitigation
          progress reports until May 2005; and
          The region was not closing hazard mitigation grants on a timely basis. We noted that one
          state had 6 open grants, where the period of performance had expired over one year ago.

       Recommendation:
       We recommend that the region develop and implement procedures to ensure that, regardless of
       employee turnover:
          Grant recipients are periodically reminded of the requirements regarding the timely
          submission of quarterly progress reports; and
          Grants are closed on a timely basis.

EPR - FMC 05-03 - Lack of segregation of duties related to preparation and approval of journal
vouchers (NFR No. EPR 05-04)

       We noted that 15 individuals had both preparation and approval authority of their own journal
       vouchers within IFMIS. In FY2004, we reported that 16 people held this authority.       .

       Recommendation:
       The system access configuration in IFMIS should be reviewed and modified to prohibit
       individuals from preparing and approving their own journal vouchers. In addition, the list of
       individuals with the ability to approve journal vouchers should be reviewed by the Financial and
       Acquisition Management Division (FAMD) to ensure that the number of approvers is appropriate
       given the needs of the organization and the nature of the transactions processed by journal
       vouchers.
                                                                                             Section I11
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


EPR - FMC 05-04 - Delay in clearing items from the suspense account (NFR No. EPR 05-06)

       The suspense fund totaled $39 million at June 30,2005. We noted that approximately 54 percent
       of the suspense h n d balance at that time was over 90 days old.

       Recommendation:
       We recommend that EP&R ensure that items in the suspense account are cleared in a timely
       manner.

EPR - FMC 05-05 - Capitalization criteria in NEMIS was not updated (NFR No. EPR 05-09)

       During our review of the FEMA form 40-1, Requisition and Commitmentfor Sewices and
       Supplies, issued for manufactured housing units related to Hurricane Katrina, we noted that some
       of the commitments were assigned to budget object class (BOC) 3199 (capitalized) even though
       the cost of individual units did not meet the capitalization threshold of $50,000 or more. The
       procurements were assigned to BOC 3 199 because the description of the BOC in the National
       Emergency Management Information System (NEMIS) erroneously indicates that the BOC
       should be used for capitalized items costing $15,000 or more.

       Recommendation:
       We recommend that the NEMIS data table be updated to reflect current capitalization threshold.

EPR - FMC 05-06 - Timeliness in reconciling FMS 6653 differences (NFR No. EPR 05-10)

       The June 30,2005, FMS 6653 (UndisbzlrsedAppropriation Account Ledger) for Treasury fund
       symbol 70X0700 reported differences totaling approximately $174 thousand. This amount was
       outstanding at September 30,2004 and remained unreconciled at September 30,2005.

       Recommendation:
       We recommend that EP&R reconcile prior month's differences in a timely manner, permitting no
       (or only insignificant) differences to remain outstanding more than 3 months. In addition, any
       differences more than 3 months old should be disclosed separately and explained on the FMS
       6653 worksheet.

EPR - FMC 05-07 - Temporary adjustments of fund balance with Treasury reconciliation
differences (NFR No. EPR 05-11)

       We noted that FAMD was posting temporary unsupported adjustments to fund balance with
       Treasury to reconcile the amount reported by the agency to the amount reported by the U.S.
       Treasury. Consequently, EP&R's fund balance with Treasury reported on the year-end financial
       statements was not supported by the agency's records.

       Recommendation:
       We recommend that EP&R improve the timeliness of its correction of unreconciled differences to
       eliminate the need for temporary unsupported adjustments.
                                                                                              Section 111
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


EPR - FMC 05-08 - Improvements needed in the TIER validation process (NFR No. EPR 05-13)

       During FY 2004, we noted that EP&R did not have formal policies and procedures in place to
       manage the warning and fatal errors encountered during the monthly TIER submission process.
       Instead, the errors were handled on an as-received basis by the lead TIER systems accountant at
       EP&R. EP&R issued formal procedures in February 2005 addressing the TIER submission
       process. However, the process did not leave an adequate audit trail to determine if the procedures
       were properly implemented, were adequate, or were effective. When fatal errors were cleared
       during the submission process, there was no documentation to indicate how the fatal errors were
       cleared in order to determine whether the treatment was appropriate. We also noted that EP&R
       did not perform a formal review of the CFO Vision financial statements and related footnote
       disclosures each month to ensure that the data submitted is properly processed and presented by
       the Department's Office of Financial Management (OFM).

       Recommendation:
       We recommend that EP&R:
          Amend procedures issued in February 2005 to require maintenance of adequate
          documentation to support how each warning and fatal error was addressed, and
          Work with DHS OFM to obtain the information needed and then formalize and document a
          review each month of the CFO Vision financial statements that includes analytical reviews
          and reviews of the footnote disclosures.

EPR - FMC 05-09 - Recording of accruals related to fire grants (NFR No. EPR 05-18)

       EP&R disburses Assistance to Firefighters grants (AFG) on behalf of SLGCP. EP&R records an
       increase to fund balance with Treasury and an advance from others upon receipt of the advance
       from SLGCP. As disbursements are made to grantees, EP&R reduces fund balance with Treasury
       and the advance from others, and records a reimbursable revenue and expense. However, EP&R
       did not accrue a grants payable liability for the AFG, for expenses incurred by grantees, but not
       paid to them as of year-end.

       Recommendation:
       EP&R should develop and implement procedures to estimate and record the grants payable
       liability related to the AFG at June 30, and September 30, and should communicate these
       procedures to SLGCP.

EPR - FMC 05-10 - Recording of costs for software in development (NFR No. EPR 05-19)

       EP&R is recording costs for software in development in U.S. Government Standard General
       Ledger (SGL) account 1830, Internal Use Software, rather than SGL account 1832, Internal Use
       Software in Development. Consequently, EP&R is inappropriately amortizing software that has
       not undergone final acceptance testing, and is not in full compliance with Statement of Federal
       Financial Accounting Standards (SFFAS) No. 10, Accounting for Internal Use Software.

       Recommendation:
       EP&R should:
                                                                                              Section I11
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2005


          Amend its procedures to ensure that the costs of software in development are recorded in
          SGL account 1832, and the h l l cost of the software is transferred to SGL account 1830 after
          final acceptance testing is completed;
          Reclassify costs of software in development that are currently recorded in SGL account 1830
          to SGL account 1832; and
          Reverse the amortization expense recorded to date for the costs of software in development.

EPR - FMC 05-11 -Recognition of National Flood Insurance Program (NFIP) flood claim
obligations (NFR No. EPR 05-20)

       During FY 2005, EP&R changed the timing of the recognition of obligations related to flood
       insurance claims and began recording an obligation when a claim was approved for payment.
       The DHS OFM considered this situation a correction of an error and restated DHS statement of
       budgetary resources balances as of September 30,2004 in its F Y 2005 Performance and
       Accotlntability Report. However, no budgetary accounting guidance specifically addresses the
       unique nature of flood insurance claims, and describes the appropriate accounting treatment over
       reporting.

       Recommendation:
       We recommend that EP&R request OMB to provide written guidance regarding the timing of the
       recognition of budgetary obligations related to flood insurance claims.

EPK - FMC 05-12 - Personal property acquired under mission assignments (NFR No. EPR 05-21)

       Personal property acquired under mission assignments is not entered into EP&R's property
       management system, the Logistics Information Management System (LIMS), until EP&R takes
       physical possession of the property, although EP&R may obtain title to it earlier. Further, no
       distinction or data field exists within LIMS to identify personal property acquired under mission
       assignments. Thus EP&R personnel cannot easily determine whether property acquired under a
       mission assignment is properly entered into LIMS or whether EP&R has received or properly
       disposed of all property purchased through mission assignments. Additionally, EP&R does not
       perform periodic reviews to ensure the completeness and existence of personal property recorded
       in LIMS related to mission assignments.

       Recommendation:
       We recommend that EP&R Logistics Division, in conjunction with other EP&R divisions, as
       appropriate, develop and implement policies and procedures to:
           Identify personal property acquired under mission assignments and properly record such
           property in LIMS when EP&R obtains title to it;
           Facilitate identification within LIMS of personal property acquired under mission
          assignments; and
           Perform periodic completeness and existence reviews to ensure that all personal property
           purchased with mission assignment funds has been properly recorded in LIMS and is
           eventually received by EP&R, or is disposed of in accordance with the National Response
           Plan.
                                                                                                   Section I11
                                    Department of Homeland Security
                                    Financial Management Comments
                                          September 30,2005


EPR - FMC 05-13 -Review for property, plant, and equipment (PP&E) acquired at fiscal year-end
(NFR NO. EPR 05-22)

       Some manufactured housing units that exceeded the capitalization threshold were not recorded in
       the financial records as capitalized assets as of September 30,2005. Our comparison of the
       property listing of manufactured housing units per LIMS and PP&E subsidiary records which
       support IFMIS disclosed 69 manufactured housing units, totaling $12.6 million, which exceeded
       the capitalization threshold and were not included in the IFMIS PP&E total as of September 30,
       2005. Each of the 69 property items was reflected in LIMS as having been received between
       September 21,2005 and September 30,2005.

       Recommendation:
       We recommend that the Disaster Finance Center develop and implement a policy to conduct an
       analysis of the property records per LIMS and the expenditure transactions per IFMIS during the
       year-end closing process, to determine if capitalizable property items were received after the
       initial analysis and reconciliation, but prior to the fiscal year-end. If the analysis reveals material
       unrecorded capitalizable property, then an adjusting journal entry should be posted prior to the
       second (i.e. mid-October) submission of trial balance data for the fiscal year.

EPR - FMC 05-14 - Availability of supporting documentation for financial transactions (NFR No.
EPR 05-23)

       Procurement files, which included obligating documents, were not available to review for two
       manufactured housing sample items. Further, documentation to support the initial disaster
       housing obligations recorded and the status of unliquidated obligations at year-end by the Joint
       Field Offices in Texas, Alabama, and Louisiana, and the National Processing Service Center were
       not provided to the auditors.

       Recommendation:
       We recommend that:
          EP&R ensure that a proper contingency plan is in place so that general administrative
          functions continue, even when significant resources have been deployed to disaster sites; and
          The Office of Procurement develop and implement policies and procedures to track the
          physical location of all procurement-related files.

EPR - FMC 05-15 - Timely recording of manufactured housing property in LIMS (NFR No. EPR
05-24)

       EP&R did not timely record the purchase of manufactured housing units in the property
       management system, and supporting documentation was not readily available. From a sample of
       invoices paid prior to September 30,2005 for the purchase of 86 manufactured housing units,
       documentation supporting 57 of the units could not be located in the LIMS files prior to the end
       of fieldwork in October. Of the remaining units, 20 were included in the September LIMS file
       and nine were included in the October LIMS file.

       Recommendation:
       We recommend that EP&R's Logistics Division:
                                                                                 Section I11
                       Department of Homeland Security
                       Financial Management Comments
                             September 30,2005


Assess the reason(s) for the delay in recording the receipt of manufactured housing units
related to Hurricanes Katrina and Rita (e.g., untimely data entry by contracted personnel or
untimely communication of receipt data from the field);
Implement the appropriate measures to ensure that personal property is entered into LIMS
timely and supporting documentation is maintained; and
Perform a completeness review to ensure that all manufactured housing units received related
to Hurricanes Katrina and Rita, have been entered into LIMS.
                                                                                                  Section IV
                                     Department of Homeland Security
                                     Financial Management Comments
                                           September 30,2005


IV.      UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES (USCIS)

CIS - FMC 05-01 - CLAIMS 3 and 4 are not being updated in a timely manner upon adjudication
(NFR NO. CIS 05-07)

         The adjudication decision was not updated in CLAIMS 4 in a timely manner for four of 74
         naturalization applications tested. These results were extrapolated indicating an estimated error
         (i.e., untimely update) rate of 5.4 percent of the population. In addition, the adjudication decision
         was not updated in CLAIMS 3 in a timely manner for 8 of 188 immigration applications tested.
         These results were extrapolated indicating an estimated error rate of 4.3 percent of the population.
         The untimely updating of CLAIMS 3 and CLAIMS 4 increases the possibility that the number of
         pending applications at the end of the reporting period may be overstated, thus resulting in the
         overstatement of deferred revenue. We noted that workload demands may be the cause of this
         condition.

         Recommendation:
         We recommend that the USCIS Office of Domestic Operations:
            Develop and implement a written policy requiring each adjudication officer to update the
            CLAIMS system within three days of adjudication in order to minimize the potential
            overstatement of deferred revenue at the end of a reporting period; and
            Reassess the number of applicants to be processed in a day by one adjudication officer.

CIS - FMC 05-02 - Insufficient QA procedures related to the search for missing files (NFR No. CIS
05-08)

         USCIS performs quality assurance (QA) procedures over pending immigration and naturalization
         applications to determine deferred revenue. During our review of the QA procedures, we noted
         14 application files were reported as not found, i.e., not available (N/A). Specifically, the sites
         were unable to physically locate the file within their office and believed them to be at another
         office so no further effort was expended to determine the application status. This course of action
         is consistent with the written QA procedures which instructs the sites to report back cases that are
         not located at the site as N/A as opposed to determining the status of the application with the
         assistance of the office where the application is believed to be located. Files reported back as
         N/A are not being included in the calculation of the QA error rate, and the actual results of these
         applications could affect the calculated error rate as the files could be closed.

         Recommendation:
         We recommend that the USCIS Office of Financial Management, in conjunction with the
         Performance Management Division:
             Develop and implement additional written QA procedures to account for all applications
             included in the QA queries and require that the status of the application be determined
             regardless of its physical location; and
             Recompute the error rates previously computed during FY 2005 by including missing files
             previously reported as N/A as errors.
                                                                                                Section IV
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30,2005


CIS - FMC 05-03 - Incorrect fee amounts used in RNACS queries (NFR No. CIS 05-09)

       We noted that for 28 of 36 pending naturalization applications tested, queries of the Reengineered
       Naturalization Application Casework System (RNACS) returned incorrect fee amounts. Incorrect
       fee amounts in RNACS queries may result in the over or understatement of deferred revenue.

       Recommendation:
       We recommend that the USCIS Office of Financial Management and the Performance
       Management Division:
          Correct the fee table in RNACS so that queries provide the correct fee amounts for
          applications; and
          Perform period checks or reconciliations to ensure that the RNACS fee table remains correct.

CIS - FMC 05-04 - Applications not subject to quality assurance procedures (NFR No. CIS 05-10)

       Not all pending applications are tracked within one system or systems that are integrated.
       Pending naturalization applications are tracked in CLAIMS 4. Pending immigration applications
       that are physically located at the service centers or directly mailed to the National Benefits Center
       (NBC), via Lockbox facility, are tracked in CLAIMS 3 LANs. All other pending immigration
       applications are tracked in 'ad hoc' (e.g., manual or electronic spreadsheets) systems. As a result,
       gathering accurate and complete information on pending applications is more difficult.

       For applications that are tracked in the 'ad hoc' systems, districts report monthly workload data
       through the Performance Analysis System. The summary totals from this system are used by the
       Performance Management Division to determine pending cases and estimate deferred revenue.
       This information is provided to USCIS' Office of Financial Management for inclusion in the
       computation of deferred revenue. Applications reported through the Performance Analysis
       System are not subjected to the quality assurance procedures that test data reliability and that
       were implemented by the USCIS Office of Financial Management, because the relevant data is
       not captured in the 'ad hoc' systems.

       Recommendation:
       We recommend that the Office of Domestic Operations:
          Continue its efforts to implement the Case Management System, an integrated system to
          replace CLAIMS 3 and CLAIMS 4, to track the status of all types of immigration and
          naturalization applications; and
          Implement policies and procedures requiring district offices to perform periodic (i.e.;
          quarterly or semi-annually) cycle counts for all pending immigration and naturalization
          applications tracked in 'ad hoc' systems, to substitute for other quality assurance procedures
          not performed, and report the results of the cycle counts to the Office of Financial
          Management.
                                                                                              Section IV
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


CIS - FMC 05-05 - Fee receipts are not being deposited in a timely manner per Treasury guidance
(NFR NO. CIS 05-11)

       We noted that the data entry date for fee receipts, which evidences the deposit date, exceeded
       Treasury guidelines by one business day for 68 of 159 naturalized and immigration applications
       tested during the audit.

       Recommendation:
       We recommend that the Office of Domestic Operations:
          Continue efforts to move the receipt of all Service Center applications and petitions with fees
          to lockbox operations by the end of FY 2006; and
          Continue monitoring contractor performance through Contractor Performance Analysis Units
          (CPAUs) and make use of the available remedies under the Federal Acquisition Regulations
          for noncompliance with contractor requirements.

CIS - FMC 05-06 - Accumulated leave balances reported by the National Finance Center (NFC) do
not agree with the leave balances in STAR (NFR No. CIS 05-12)

       For one sample item, we noted that the beginning and ending accumulated annual and sick leave
       hours reported for pay period 26 by NFC did not agree to the hours reported within the USCIS
       System Time and Attendance Report (STAR) database.

       Recommendation:
       We recommend that the Human Capital Management Office re-emphasize to all timekeepers the
       importance of researching and resolving discrepancies with respect to employee leave balances.

CIS - FMC 05-07 - Actuarial FECA liability for USCIS appears to be misstated (NFR No. CIS 05-
18)

       During several reorganizations within the Department during FY 2003 and FY 2004, employees
       were transferred to and from ICE, USCIS, and CBP, but the information reported to the
       Department of Labor (DOL) was not fully updated. Consequently, some portion of each bureau's
       staff was reported to DOL under the wrong component. As a result, the FECA liability for each of
       these bureaus was calculated using faulty personnel data.

       Recommendation:
       We recommend that USCIS, with the assistance of CBP, ICE, and the Department's OCFO:
          Determine the accuracy of employee bureau classifications;
          Communicate correct personnel information by bureau to DOL early in FY 2006; and
          Develop and implement controls to ensure that the FECA liability allocated to USCIS is
          reasonable and relates only to USCIS employees.
                                                                                                Section V
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


V.     IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE)

ICE - PMC 05-01 -Documentation to support T&A and leave data was not provided (NFR No.
ICE 05-1 0)

       ICE did not provide adequate supporting documentation for one sample item selected for testing
       the time and attendance (T&A) control process. Documentation requested but not received
       included: a signed and approved STAR report; an approved SF-71; Requestfor Leave or
       Approved Absence; and the related NFC report for annual and sick leave.

       Recommendation:
       We recommend that ICE establish policies to ensure that supporting documentation is properly
       maintained, and the T&A worksheets, STAR reports, and SF-71s are available for audit.

ICE - FMC 05-02 - Payroll interface errors and reclassifications for ICE, USCIS, and the
component units (NFR No. ICE 05-18)

       Significant payroll reclassifications (e.g., charge code corrections) were made during FY 2005
       because employees were coded to the wrong bureaus as a result of prior Departmental
       restructurings. Timekeepers also miscoded timesheets. According to statistics from the Payroll
       Accounting and Reporting (PAR) section, 11,988 records consisting of 566,081 line items were
       reclassified during the year. The total dollar value of these reclassifications was $3 11 million.
       We note that reclassifications since September 2004 have decreased significantly; however, the
       volume and amount of the reclassifications remains high.

       Recommendation:
       We recommend that the ICE Offices of Financial Management (OFM), Budget, and Resource
       Management (ORM) identify additional resources for ORM's Position and Payroll Management
       section. Additional resources are needed to assist in the clearing and processing of errors and
       corrections, to act as a liaison with CBP personnel offices, and to act as a liaison with
       timekeepers to proactively eliminate payroll coding errors.

ICE - FMC 05-03 - Insufficient supporting documentation to determine whether annual training
was provided to all Senior Executive Service (SES) employees (NFR No. ICE 05-36)

       The ICE Ethics Office was unable to provide adequate documentation to support the completion
       of the annual ethics training for all 29 SES employees at ICE. Due to limited budgetary
       resources, the Ethics Office only completed one training session during the annual directors
       meeting, and the sign-in sheet for this meeting was discarded by personnel of the facility being
       used.

       Recommendation:
       We recommend that ICE implement policies to ensure that all SES employees receive ethics
       training on an annual basis. Additionally, we recommend that ICE management take appropriate
       action to secure and maintain the necessary evidence to document the completion of ethics
       training for SES employees, and ensure that this documentation is readily for audit.
                                                                                               Section V
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


ICE - FMC 05-04 - Accumulated leave balances reported by NFC do not agree with the leave
balances recorded in STAR (NFR No. ICE 05-42)

       We noted eight instances where the annual and sick leave hours reported by NFC and the STAR
       database did not agree. Our testwork indicated that adjustments were necessary in STAR;
       however, they were not made. Further, ICE did not provide documentation to support the
       correction of leave errors and was unable to validate whether or not reconciliations of the leave
       balances between the two systems was performed.

       Recommendation:
       We recommend that:
          Timekeepers and/or supervisory personnel perform reconciliations of employees' annual and
          sick leave balances each pay period, and make appropriate adjustments to the systems (i.e.;
          STAR or NFC) in a timely manner;
          Documentation supporting the reconciliations and subsequent adjustments be maintained and
          available for audit; and
          Policies and procedures be implemented to conduct leave audits, on a periodic basis, to
          validate a sample of the recorded balances.

ICE - FMC 05-05 - Actuarial FECA liability for ICE appears to be misstated (NFR No. ICE 05-43)

       During several reorganizations within the Department during FY 2003 and FY 2004, employees
       were transferred to and from ICE, USCIS, and CBP, but the information reported to DOL was not
       fully updated. Consequently, some portion of each bureau's staff was reported to DOL under the
       wrong component. As a result, the FECA liabilty for each of these bureaus was calculated using
       faulty personnel data.

       Recommendation:
       We recommend that ICE, with the assistance of CBP, USCIS, and the Department's OCFO:
          Determine the accuracy of employee bureau classifications;
          Communicate the correct personnel information by bureau for these individuals to DOL early
          in FY 2006; and
          Develop and implement controls to ensure that the FECA liability allocated to ICE is
          reasonable and relates only to ICE employees.

ICE - FMC 05-06 - Inability to complete audit procedures related to Thrift Savings Plan (TSP)
compliance due to lack of supporting documentation (NFR No. ICE 05-44)

       No hard-copy evidence existed to support the employee's authorization of a change to their Thrift
       Savings Plan (TSP) election for two of 32 items selected for testwork. In addition, no supporting
       documentation was provided from either the Employee Express or Employee Personal Page
       databases to support the date of the changes in the TSP elections.

       Recommendation:
       We recommend that ICE review its human resources policies and their implementation with
       respect to TSP documentation to ensure it is properly maintained and available for audit.
                                                                                                 Section V
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30,2005


       Additionally, ICE should explore methods to obtain verification for benefit changes by electronic
       means.

ICE - FMC 05-07 - FFMS does not adequately support certain obligation information (NFR No.
ICE 05-46)

       The transaction date reported on the Obligation Transaction History (FM140) report is inaccurate,
       and the obligation amount reported on the Obligation screen (FM040) produced from FFMS is
       incomplete, as follows:

           Transaction Dates: The obligation transaction date per the FM140 is inaccurate for
           transactions that contain modifications or adjustments. Modifications are reported in FFMS
           as of the date when the original obligation was recorded, not when the modification was
           made. Consequently, the obligation dates in FFMS for modifications or adjustments are
           earlier than the date of their approval by the contracting officer (per the obligating document).
           This gives the appearance that the transaction was entered into the system prior to the
           transaction being authorized.
           Obligation Amounts: The FM040 reports an obligation amount as the original obligation and
           any upward or downward adjustments to the obligation, but does not reflect disbursements
           made against the obligation. Thus, the remaining (i.e., unliquidated) obligation balance is not
           readily discernible.

       Recommendation:
       We recommend that the ICE Office of Financial Management:
          Make recommendations to the system programmers to edit the system parameters so that the
          FM140 reflects the actual date of each transaction as opposed to defaulting to the original
          date that the obligation was created within the system; and
          Make recommendations to the system programmers to change the system parameters so that
          the FM040 reflects the unliquidated balance remaining on the obligation.
                                                                                                Section VI
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30,2005


VI.    OFFICE OF STATE AND LOCAL GOVERNMENT COORDINATION AND
       PREPAREDNESS (SLGCP)

SLGCP - FMC 05-01 - Lack of an executed reimbursable agreement (NFR No. SLGCP 05-01)

       SLGCP had an executed reimbursable agreement of approximately $6 million for FY 2004 with
       the Department of Justice's Office of Justice Programs (OJP) for performing certain
       administrative and accounting functions for SLGCP. However, no agreement was completed for
       FY 2005 upon expiration of the FY 2004 agreement.

       Recommendation:
       We recommend that SLGCP timely execute a reimbursable agreement with OJP in order to
       clearly define the scope of services and the responsibilities of both parties, and to avoid a
       potential disruption of accounting services.


SLGCP - FMC 05-02 - Financial Monitoring of Grants Awarded by SLGCP (NFR No. SLGCP 05-
02)

       Financial monitoring for SLGCP grants is conducted by OJP. In order to develop a sample of
       grants for the fiscal year monitoring plan, OJP applies risk-based criteria to the universe of all
       active grants for which it accounts as of June 30 of the current fiscal year. The universe consists
       of both grants awarded by OJP and grants awarded by other entities for which OJP provides
       grant-related financial processing and reporting services, including SLGCP.

       Since the population of grants is not segregated by entity, the possibility exists that SLGCP's
       grants may not receive adequate consideration. Only 4 percent of SLGCP's grants were
       monitored from a financial perspective in FY 2005.

       Recommendation:
       We recommend that SLGCP complete efforts to implement its own grants office and coordinate
       the receipt of relevant financial information with OJP in order to assume responsibility for
       financial monitoring of grants that it awards.

SLGCP - FMC 05-03 - Lack of segregation of duties in the preparation and approval of journal
vouchers (NFR No. SLGCP 05-04)

       Two individuals have both preparation and approval authority over journal vouchers in IFMIS.

       Recommendation:
       SLGCP, in coordination with OJP, should work to ensure that the system access configuration in
       IFMIS is reviewed and modified to prohibit individuals from preparing and approving their own
       journal vouchers. In addition, the list of individuals with the ability to prepare and/or approve
       journal vouchers should be reviewed periodically by SLGCP management to ensure that the
       number of preparers and approvers is appropriate given the needs of the organization and the
       nature and volume of the transactions processed by journal voucher.
                                                                                               Section VI
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2005


SLGCP - FMC 05-04 - Grants Monitoring and File Maintenance (NFR No. SLGCP 05-05)

      The required documentation related to monitoring grants was not consistently maintained in the
      grant files located at either OJP or SLGCP. This required documentation includes office-based
      programmatic monitoring memorandums, monitoring visit reports, and semi-annual discretionary
      assistance progress reports.

      In addition, we noted (1) inconsistent evidence of proper review, by both the Preparedness
      Officer and the responsible Branch Chief, of programmatic monitoring memorandums and
      monitoring visit reports, (2) untimely completion of monitoring visit reports, and (3) no evidence
      of follow-up on the missing semi-annual discretionary assistance progress reports.

      Recommendation:
      We recommend that SLGCP consistently follow established policies and procedures and obtain
      adequate resources to ensure that adequate documentation is maintained in each grantee's official
      file.

SLGCP - FMC 05-05 - Statement of net cost allocation methodology (NFR No. SLGCP 05-09)

      OJP does not have a system that properly assigns actual SLGCP costs to DHS strategic goals in
      accordance with SFFAS No. 4, Managerial Cost Accoz~ntingConcepts and Standards for the
      Federal Government. As such, SLGCP uses the percentage allocation of costs presented in the
      President's Budget to allocate its FY 2005 costs across various DHS strategic goals for purposes
      of financial reporting. However, SLGCP does not have sufficient detail or support in O R ' S
      accounting information systems or in its manual records to validate that the allocations made to
      each strategic goal are materially representative of actual FY 2005 expenditures.

       Recommendation:
       Until SLGCP is able to utilize a managerial cost accounting system that assigns actual costs to
       DHS strategic goals in accordance with SFFAS No. 4, we recommend that SLGCP develop and
       implement procedures, either manual or automated, that allow its strategic goal cost allocations to
       be accumulated, compiled, and validated based on actual data on a regular basis. The allocated
       costs should properly represent actual costs incurred to support each applicable DHS strategic
       goal. Grantee reporting requirements could be modified to assist in this process, if necessary.

SLGCP - FMC 05-06 - Improvements needed in the TIER validation process (NFR No. SLGCP 05-
1 0)

       OJP does not have formal policies and procedures in place to manage the warning and fatal errors
       encountered during the monthly TIER submission process. Instead, the Reports Branch
       Accountant at OJP handles the errors on an as-received basis. Also, although OJP personnel
       perform an informal review of the monthly CFO Vision financial statements and related footnote
       disclosures, no formal procedures are in place to ensure that the review process is adequately
       performed and documented. In addition, we noted that SLGCP does not effectively monitor the
       administrative and accounting services performed by OJP on its behalf.


       Recommendation:
                                                                                               Section VI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


      We recommend that SLGCP management require OJP, as part of the financial services
      reimbursable agreement, to:
          Formalize its TIER submission review procedures to ensure that all errors, both warning and
          fatal, are managed quickly and effectively; and
          Formalize, perform, and document monthly reviews of the CFO Vision financial statements
          that include analytical reviews, reconciliations to IFMIS, and reviews of the note disclosures.

      We also recommend that SLGCP increase its oversight of the administrative and accounting
      services performed by OJP to ensure that the above recommendations are implemented.

SLGCP - FMC 05-07 - Improvement needed over journal voucher review procedures (NFR No.
SL GCP 05-11)

      Adequate documentation was not readily available to support certain journal vouchers tested. In
      addition, SLGCP has limited resources to perform monitoring and review over the process of
      authorization and recording of its journal vouchers.

      Recommendation:
      We recommend that SLGCP work with OJP to ensure that adequate documentation is obtained,
      reviewed, and filed for each journal voucher. This should include SLGCP establishing
      monitoring policies and procedures over OJP's process of authorizing and recording SLGCP's
      journal vouchers.

SLGCP - FMC 05-08 - Timeliness of grant closeouts (NFR No. SLGCP 05-14)

      As of September 30, 2005,21 of the 206 grants selected for testwork were not programmatically
      closed within the timefralne prescribed by OJP guidelines (i.e., 180 days after the end date of the
      grant). These grants had a remaining total award balance of $100,474. In addition, the official
      grant file did not contain any documentation to justify a delay in the closeout process.

       Recommendation:
       We recommend that SLGCP management:
          Strictly enforce OJP's policy for closing grants and hold accountable parties responsible for
          delays or lack of documentation to justify delays;
          Establish performance goals for SLGCP grant program managers that focus on the timely
          closing of grants;
          Establish formal lines of communication whereby grantees are timely notified of the
          documents necessary for the programmatic and fiscal grant closeout package; and
          Monitor the Office of the Controller (OC) Control Desk's adherence to the timetable
          established for the timely closeout of grants whereby the OC Control Desk fiscally closes all
          grants once the grants enter Status 91 (the grant has been programmatically closed but not
          fiscally closed).
                                                                                                Section VII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30,2005


VII.   TRANSPORTATION SECURITY ADMINISTRATION (TSA)

TSA - FMC 05-01 - Human resources document retention (NFR No. TSA 05-05)

       For the period October 1,2004 through March 31, 2005, six of 23 sample items tested did not
       have the proper offer letters in the Official Personnel Files. No offer letters were available for
       five items and in one case the letter was available but the total salary was incorrect and did not
       match the employee's initial SF-50, NotiJication of Personnel Action.

       Recommendation:
       We recommend that TSA develop and implement policies and procedures to ensure that salaries
       are correctly stated on offer letters and that employees personnel files are complete.

TSA - FMC 05-02 - Revenue and Accounts Receivable (NFR No. 05-07)

       Our review of the June Revenue Reconciliation and the Accounts Receivable Accrual Schedule
       identified an error of approximately $180 million. This error resulted from an incorrect carry-
       forward amount and inclusion of an amount that should have been reversed.

       Recommendation:
       TSA Office of Financial Management should:
          Ensure the Revenue Reconciliations and Accounts Receivable Accrual Schedules are
          reviewed (both the amounts and mathematical accuracy) by the appropriate level of
          management and contain evidence of the review (e.g., signature).
          Formalize policies and procedures for reviewing documentation supporting all on-top
          adjustments to the financial statements and manual journal vouchers posted to the general
          ledger.

TSA - FMC 05-03 - Imputed Financing (NFR No. TSA 05-08)

       TSA does not have procedures in place to capture, record, and report imputed intra-departmental
       costs and the related imputed financing sources (i.e., those bureaus within the Department where
       the cost of providing goods or services to TSA exceeds the amount charged to TSA).

       Recommendation:
       TSA, with Departmental guidance, should develop and implement policies and procedures to
       properly recognize the amount of imputed intra-departmental costs in financial reports submitted
       to the Department on a quarterly basis.
                                                                                              Section VIII
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30,2005


VIII.   UNITED STATES COAST GUARD (Coast Guard)

USCG - FMC 05-01 - Confidential financial disclosure reports (CFDRs) (NFR No. USCG 05-05)
        Controls over the filing and review of CFDRs were not fully effective. Of the 15 CFDRs selected
        for review:
             Two of the CFDRs were not timely filed by the due date of October 31,2004;
             For one CDFR, the review occurred before the employee signed the CDFR; and
             One CFDR was not timely certified within 60 days after the filing as required by
             Commandant Instructions (COMDTINS 53 70.9B).
        Recommendation:
        We recommend that the Coast Guard review and revise its procedures to ensure the timely filing
        and review of CFDRs.
USCG - FMC 05-02 - Legal liability reporting (NFR No. USCG 05-39)
        The contingent legal liability amount of approximately $174 million sent to the Finance Center
        (FINCEN) to be reported on the Coast Guard balance sheet as of September 30,2005 was not
        correct. Coast Guard personnel recorded approximately $3 million in excess of the correct
        amount in the general ledger. This excess represented an amount that was required to be
        disclosed in the footnotes, but not recorded on the balance sheet. In addition, Coast Guard
        personnel did not identify the error during the review of the trial balance and journal entry.
        Recommendation:
        We recommend that the Coast Guard establish or revise its policies, procedures, and controls to
        ensure that the contingent legal liability is properly estimated and recorded in the Coast Guard
        financial statements.
                                                                                              Section IX
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


IX.    UNITED STATES SECRET SERVICE (Secret Service)

USSS - FMC 05-01 - Seized counterfeit currency inventory (NFR No. USSS 05-01)

       We noted the following findings related to the physical inventory observation at certain field
       offices visited:
           One custodian performing hislher first physical inventory observation did not appear to have
           proper training. During the first portion of the inventory, the custodian did not properly
           identify the inventory counts as required by Secret Service inventory instructions.
           Additionally, we noted that the custodian was unaware of which 1544's (counterfeit notes)
           were being inventoried;
           One custodian temporarily could not find a Supernote that was to be counted due to an
            inadequate paper trail. In addition, the vault security was deficient;
           One field office did not require two people in the vaults at all times due to employee
           constraints; and
           The inventory count sheets for one location, sent by Headquarters, did not agree to the vault
            listing. Therefore, the custodian used count sheets from the site records to perform the
            inventory.

       Recommendation:
       We recommend that:
          The Forensic Services Division (FSD) and the Financial Management Division (FMD)
          continue working with the field offices to ensure that they understand the inventory
          instructions and new reporting requirements;
          Secret Service management require new custodians to have adequate training for performing
          a physical inventory;
          Secret Service management ensure all field offices are trained on how to properly maintain
          and track inventory, and if another area reviews the counterfeit currency, it is returned in a
          reasonable timeframe; and
          Secret Service management ensure that each vault meets security standards.

USSS - FMC 05-02 - Fund balance with Treasury (NFR No. USSS 05-02)

       Due to the new system implementation of Travel Oracle Prism Sunflower (TOPS), the Secret
       Service has not been able to timely and effectively reconcile the fund balance with Treasury
       account with Treasury during the fiscal year.

       Recommendation:
       We recommend that the Secret Service management improve the control environment by:
          Developing and implementing policies and procedures to adequately reconcile the fund
          balance with Treasury account balance; and
          Providing employees specific h n d balance with Treasury reconciliation training to include
          obtaining detailed information from the accounting system to identify specific reconciling
          items with Treasury.
                                                                                               Section IX
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2005


USSS - FMC 05-03 - Seized property process (NFR No. USSS 05-03)

       The Counterfeit Currency System (CSS) does not conform with Joint Financial Management
       Improvement Program (JFMIP) requirements. Specifically, CSS does not allow for accurate and
       timely reconciliations between the records and the system as CSS is a real-time system and
       archived information is not maintained. To compensate for this, the USSS started a reconciliation
       spreadsheet to track the transfers, changes, seizures, and destruction of counterfeit currency. Due
       to timing, we were only able to review the July and August spreadsheets. Further, the Secret
       Service used the system reported net change amount for the month of September in its calculation
       for the year-end footnote disclosure. We were unable to apply detailed substantive procedures to
       the changes by location for September and could not conclude on the accuracy and completeness
       of the September 30, 2005, counterfeit seized currency footnote balance.

       Recommendation:
       We recommend that:
          FSD and FMD continue working with the field offices to ensure they are aware of the new
          reconciliation spreadsheet and the time frame for submitting information;
          FSD continue to strengthen the seized property reporting process, so that monthly
          reconciliations are completed timely; and
          Implement a compliant Counterfeit Currency System if cost-beneficial.
                                                    Appendix A
          Department of Homeland Security
Crosswalk - Financial Management Comments to NFRs
                September 30,2005
                                                    Appendix A
         Department of Homeland Security
Crosswalk - Financial Management Comments to NFRs
                September 30,2005
                                                    Appendix A
         Department of Homeland Security
Crosswalk - Financial Management Comments to NFRs
                September 30,2005




                    onents needs to be
                                                    Appendix A
         Department of Homeland Security
Crosswalk - Financial Management Comments to NFRs
                September 30,2005
                                                    Appendix A
         Department of Homeland Security
Crosswalk - Financial Management Comments to NFRs
                 September 30,2005




                         nsactions was not
                                                    Appendix A
         Department of Homeland Security
Crosswalk - Financial Management Comments to NFRs
                 September 30,2005
                                                    Appendix A
         Department of Homeland Security
Crosswalk - Financial Management Comments to NFRs
                September 30,2005
                                  Appendix B
Department of Homeland Security
   Status of Prior Year NFR 's
       September 30,2005
                                                                                               Appendix B
                                      Department of Homeland Security
                                         Status of Prior Year NFR 's
                                            September 30,2005




EPR       04-08    Lack of proper TIER validation process                                  EPR 05-13
                   Omission of offsetting receipts from the June 30,2004 CFO           X
EPR        04-09
                   Vision financial statements
EPR       04-10    Number not Used
EPR        04-11 See Information Technology Management Letter
          04-12 to
EPR                Numbers not Used
           04-15
EPR        04-16 See Information Technology Management Letter
EPR        04-17   See Information Technology Management Letter
EPR        04-18   See Information Technology Management Letter
EPR        04-19   See Information Technology Management Letter
EPR   1    04-20   1 See Information Technology Management Letter
EPR   1    04-21   1 See Information Technology Management Letter
EPR        04-22   See Information Technology Management Letter
EPR        04-23   See Information Technology Management Letter
EPR        04-24   See Information Technology Management Letter
EPR        04-25   See Information Technology Management Letter
                   Controls over the quarterly closing process present a significant
EPR        04-26                                                                       X
                   internal control weakness
                   Lack of monthly reconciliation of fund balance with Treasury
EPR        04-27   (FBWT) amounts to the Undisbursed Appropriation Account             X
                   Trial Balance (FMS 6654)
EPR        04-28   See Information Technology Management Letter
EPR        04-29   Number not used
                   Lack of timely preparation of the GAO CFO Checklist and June
EPR        04-30
                   TIER certification
                   Timeliness in resolution of differences related to FBWT
EPR        04-3                                                                            EPR 05-10
                   reconciliations for certain funds
EPR        04-32   See Information Technology Management Letter
EPR        04-33   Improper temporary accruals used for FBWT reconciliations               EPR 05-11
EPR        04-34   FMFIA Section 4 non-compliance                                          EPR 05-17
EPR        04-35   See Information Technology Management Letter
                   Various findings related to compliance with OMB Circulars A-            EPR 05-12
EPR        04-36
                   133andA-50
EPR        04-37   FMFIA Section 2 non-compliance                                          EPR 05-16
                   Lack of Segregation of duties related to preparation and approval       EPR 05-04
EPR        04-38
                   of journal vouchers
EPR        04-39   See Information Technology Management Letter
                                                                                               Appendix B
                                 Department of Homeland Security
                                    Status of Prior Year NFR 'S
                                        September 30,2005




              Process for verifying and validating obligations and recording               ICE 05-12
ICE   04-04
              Undelivered Orders needs improvement
              Methodology for estimating accounts payable for component           X
ICE   04-05
              units needs improvement
              Policies and procedures governing financial accounting and
ICE   04-06   reporting operations for the DHS Components need to be                  ICE 05-14,lCE 05-15
              implemented by ICE OFM
              Transfers of fixed assets between CBP, CIS and ICE as of                     ICE 05-16
ICE   04-07
              10/1/03 need to be completed and appropriately recorded
ICE   04-08   Analysis of financial results needs improvement                              ICE 05-17
CIS   04-09   See Information Technology Management Letter                                 CIS 05-04
CIS   04-10   See Information Technology Management Letter                        X
ICE   04-11   Level of interface errors needs improvement                                  ICE 05-18
              Untimely performance of the fund balance with Treasury
ICE   O4-I2                                                                       X
              reconciliation related to payroll
              Improvements are needed to ensure follow-up procedures are
ICE   04-13   undertaken and reconciling items for fund balance with Treasury              ICE 05- 11
              are cleared timely
              Untimely submission by ICE of financial data for the June 30                 ICE 05-19
ICE   04-14
              hard close
              Reconciliation of the FMS-6652, Statement of Differences, is not        ICE 05-20, ICE 05-33
ICE   04-15
              being performed for the Headquarters' Agency Location Code
              Recordation of FY 04 obligations of S&T that were entered in
ICE   04-16                                                                       X
              the legacy accounting agency
ICE   04-17   FFMS access control weakness                                        X
ICE   04-18   See Information Technology Management Letter                                 ICE 05-07
CIS   04-18   Review of STAR user access list                                     X
CIS   04-19   See Information Technology Management Letter
              Controls over access to immigration application fees could be
'IS   04-20                                                                       X
              improved at the Los Angeles District Office
              Interface controls over the data reported by the lockbox
CIS   04-21   operations compared to the data uploaded into NBC's CLAIMS 3        X
              LAN needs improvement
              Lack of segregation of duties in the approval of General Journal
ICE   04-22
              Entries
              Review of "warning" errors and more timely clearing of fatal                 ICE 05-19
ICE   04-23
              errors from TIER Error Submission Reports Needed
              Ineffectiveness of the review function within the general journal            ICE 05-03
ICE   04-24
              approval process
              Approval of invoices needs improvement for payments made to                  ICE 05-08
ICE   04-25
              related IAIP and S&T
                                                                                            Appendix B
                                  Department of Homeland Security
                                     Status of Pviov Year NFR 's
                                         September 30,2005




                    roval of obligating documents by contracting officer an




                improvement
                Obligations related to Border Patrol activities are in ICE'S and        CIS 05-14
 'IS    04-36
                USCIS' General Ledgers
                Improper posting of Reconciling Differences from the FMS 6652           ICE 05-27
 ICE    04-37
                to the Suspense Account
                Fee receipts are not being deposited in a timely manner per             CIS 05-1 I
 'IS    04-38
                Treasury Guidance
 ICE    04-39   Possible violations of the Anti-deficiency Act                          ICE 05-28
                ICE OFM has not met the submission deadlines set forth within
 ICE    04-40   the FY 2004 Instructional Memoranda issued by the DHS Office            ICE 05- 19
                of the Chief Financial Officer
                Controls over the accuracy of the budgetary data in the General
 1CE    04-41   Ledger is not current to ensure that the SF-132 is correct with         ICE 05-21
                FMS
                Fmancial Management and Oversight at Immigration and                    ICE 05-30
 ICE    04-42
                Customs Enforcement
                Lack of sufficient process and procedures related to FMFlA              ICE 05-55
 ICE    04-43
                reporting
                Evaluation of the Environmental Liabilities within the Science &        S&T 05-01
S&T     04-44
                Technology Directorate
                Procedures to verify the accuracy and reliability of CLAIMS 3      X
 'IS    04-45
                and the CLAIMS 3 query
 ICE    04-46   Reconciliation of intra-DHS activity and balances                       ICE 05-3 1
                Lack of reconciliation between the Open Document File and the           ICE 05-09
 ICE    04-47
                General Ledger on a monthly basis
                Immigration and Naturalization applications not tracked in              CIS 05-10
 'IS    04-48
                CLAIMS 3 or CLAIMS 4
                Controls over internal use software and software-in-development         BTS 05-01
 BTS    04-49
                need improvement

                Communication between ODP and OJP accounting staff needs
SLGCP   04-01                                                                      X
                improvement
SLGCP   04-02   Statement of Net Costs allocation methodology                          SLGCP 05-09
                                                                         Appendix B
                                Department of Homeland Security
                                   Status of Prior Year NFR 's
                                       September 30,2005




                                                                    SLGCP 05-08




USCG           Deepwater Systems Integrated Program Office (SIPO)
       04-12                                                        USCG 05-23
               Obligations
WCG    04-13   Accounts Payable Accrual Validation Process          USCG 05-67
                                                                                                            Appendix B
                                          Department of Homeland Security
                                             Status of Pvior Year NFR 's
                                                 September 30,2005




USCG       04-14       Oversight of Tri-Care Medical Costs                               X
USCG       04-15       Environmental Remediation - Small Arms Firing Range                            USCG 05-04
USCG       04-16       Medical Care Payment Controls                                      X
USCG                                                                                   Beyond
           04-17       Processing Procedures for non-Federal Medical Invoices          FY2005
                                                                                        scope1
USCG       04-18       Verification of Medical Services Provided to Service Members                    USCG 05-09
USCG       04-19       Environmental Liabilities - Vessels                                            USCG 05-10
USCG       04-20       Environmental Remediation - LighthouseILight Stations                          USCG 05-04
USCG                   Fourth Quarter Conlpleteness and Existence Physical Inventory
           04-21                                                                                      USCG 05-02
                       Draft Plan
USCG       04-22       Actuarial Oversight                                                            USCG 05-06
USCG       04-23       Oil Spill Liability Trust Fund                                                  USCG 05-44
USCG       04-24       Automated Requisition and Procurement Process                                  USCG 05-17
USCG                                                                                   Beyond
           04-25       Medical and Dental Care lnvoice Process Errors                  FY2005
                                                                                        scope1
USCG                                                                                   Beyond
           04-26       Reconciliation of Non-Federal Medical Invoices                  FY2005
                                                                                        scope1
USCG       04-27       Contracting Officer Warrant Authority                                           USCG 05-18
PG
 1 I       04-28       FY 2003 Budget Authorily -0SLTF                                   X
USCG       04-29       Preparation of the Reapportionment Schedule                       X
USCG       04-30       CGOFIFinancial Procurement Desktop System Controls                              USCG 05-19
USCG                   FY 2003 Acquisition, Construction, and Improvements
           04-3                                                                          X
                       Rescission
USCG       04-32       Obligations for Post Employinent Travel Order                                   USCG 05-12
USCG       04-33       Un-obligated Commitments                                                        USCG 05-20
USCG       04-34       Posting- of Disbursement Transactions                                           USCG 05-13
       1
       I           I

USCG       04-35 1Advances toothers                                                                    USCG 05-16
USCG       04-36       Fact and Figures Report                                                         USCG 05-21
USCG       04-37       ELC-System Inventory Locations                                                  USCG 05-01
USCG       04-38       ICP Physical Inventory Policies and Procedures                                  USCG 05-01
USCG       04-39       ELC OM&S WAP Analysis                                                           USCG 05-01
USCG                   3"dQuarter Physical lnventory Observation Co~npleteness-
           04-40                                                                                       USCG 05-01
                       Engineering Logistics Center
USCG       04-41       Coast Guard Analysis of Pre 1995 Real Property                    X
USCG       04-42       Existence - General PP&E                                                       USCG 05-52
USCG       04-43       AR&SC WAP                                                                      USCG 05-01
                                                                                                 USCG 05-24, USCG 05-43,
           04-44       Undelivered Orders - Transactions Processing Errors
                                                                                                      USCG 05-53
USCG       04-45       Fund Balance with Treasury Reconciliations                        X
USCG       04-46       Budgetary Reporting                                               X
USCG       04-47       Management Effectiveness Assessments                                            USCG 05-22
USCG       04-48       Reporting Obligations - Deepwater Systems Integrated Prograin                   USCG 05-23
                                  Appendix B
Department of Homeland Security
   Status of Prior Year NFR 's
       September 30,2005




    s Interest Payments
                                                                                                              Appendix B
                                        Department of Homeland Security
                                           Status of Pvior Year NFR 's
                                               September 30,2005




' KPMG was engaged to perform an audit over the FY 2005 Department of Homeland Security Consolidated Balance Sheet and
was not engaged to perfonn an audit over the Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net
Position, Combined Statement of Budgetary Resources, and the Consolidated Statement of Custodial Activities during FY 2005.
In addition, we were engaged to perform follow-up on the status of all active Notice of Findings and Recommendations (NFRs)
that supported reportable conditions reported in KPMG's Independent Auditors' Report dated November 4,2004. All other FY
2004 NFRs, which do not relate to the Consolidated Balance Sheet or were not reported in the November 4,2004 Independent
Auditors' Report are considered out-of-scope and no further procedures were performed.
                                                                                              Appendix C
                       Department of Homeland Security
                      Management Response to the Draft
                            Management Letter

                                                                      U.S Departmentof Homeland Security
                                                                      Washington, DC 20528




                                                         @
                                                               +F"



                       MAY 3 0 2006
                                                                      Homeland
                                                             ".(.VD   Security

MEMORANDUM FOR:             Richard L. Skinner
                            Inspector General
FROM:                       Eugene Schied   4%
                            Acting Chief Financial Officer
SUBJECT:                    Draft Report: Management Letterfor the FY ZOO5 DHS Financial
                            Statement Audit


The Office of the Chief Financial Officer has reviewed your comments and recommendations for the
Management Letterfor the ff 2005 DHS Financial Statement Audit. We have also discussed this
letter and received comments from several CFO Council members. Overall, we agree with these
findings and recommendations and will be working closely with our component, your staff and the
auditors to implement as many recommendations as we can in FY 2006.

Should you have any questions concerning our comments, please contact John McNamara, Director
of Financial Management at (202) 205-5833 or Rich Aaronson, Assistant Director at
(202) 358-1362.
Report Distribution




Department of Homeland Securitv

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary for Management
Assistant Secretary, Policy
Assistant Secretary, Public Affairs
Assistant Secretary, Legislative and Intergovernmental Affairs
Chief Financial Officer
Chief Information Officer
DHS GAOIOIG Audit Liaison

Federal Emergencv Management Agencv

Chief Financial Officer
FEMA Audit Liaison

Federal Law Enforcement Training Center

Chief Financial Officer
FLETC Audit Liaison

Preparedness

Preparedness Audit Liaison

Science and Technolow

S&T Audit Liaison

Transportation Securitv Administration

Chief Financial Officer
TSA Audit Liaison

U.S. Citizenship and Immigration Services

Chief Financial Officer
CIS Audit Liaison
Report Distribution




U.S. Customs and Border Protection

Chief Financial Officer
CBP Audit Liaison

U.S. Immigration and Customs Enforcement

Chief Financial Officer
ICE Audit Liaison

U.S. Coast Guard

Chief Financial Officer
USCG Audit Liaison

U.S. Secret Service

Chief Financial Officer
USSS Audit Liaison

Office of Mana~ementand Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector GeneralIMAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
